U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Christopher Zamarripa v. United States, No. 20-6668
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 16,
2020. The government’s response is now due, after one extension, on February 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6668
ZAMARRIPA, CHRISTOPHER
USA

KRISTIN MICHELLE KIMMELMAN
FEDERAL PUBLIC DEFENDERS OFFICE
727 E. CESAR E. CHAVEZ BLVD
B-207
SAN ANTONIO, TX 78206
915-534-6525
KRISTIN_KIMMELMAN@FD.ORG

